Vl

IN THE SUPREME COURT OF THE UNITED STATES
Supreme Court, U.S.
FILED

JAN 2 0 2021
F. Allan Midyett, Petitioner

OFFICE OF THE CLERK

v.

Robert Wilkie, Secretary,
Department of Veterans Affairs, Respondent

PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Petitioner
F. Allan Midyett, pro se
511 S.W. 3rd Avenue, #223
Rochester, MN 55902
623-466-4667

QUESTION PRESENTED

The question in this case is whether the Secretary of the Department of
Veterans Affairs can refuse to comply with provisions of 25 U.S.C. Ch. 36 to take
adverse acts causing harm to an adult American Indian employee, who is a member
of a federally recognized Indian tribe, and/or former employee of the Department of
Veterans Affairs (DVA).

CORPORATE DISCLOSURE STATEMENT
Petitioner F. Allan Midyett is an individual and thus does not issue stock and
does not have a parent corporation or any publicly held company that owns 10% or
more stock in him as an individual.
See Fed. R. App. P. 26.1(a)

PARTIES TO THE PROCEEDING
Petitioner is F. Allan Midyett, M.D.
Respondent is Robert Wilkie, Secretary, Department of Veterans Affairs

LIST OF ALL COURTS
The United States Court of Appeals for the Eighth Circuit,
Case No. 20-1032, F. Allan Midyett, M.D. v. Robert Wilkie,
Secretary, Department of Veterans Affairs, Appeal
The United States District Court for the Western District of Arkansas
Fayetteville, Division
Equal Employment Opportunity Commission

TABLE OF CONTENTS

Opinions Below

1

Jurisdiction

1

Statutory Provisions Involved

1

Statement

1

Reasons for granting the petition

3

I. The court of appeals’ decision warrants review by this Court....
A.

The court of appeals’ decision squarely conflicts with
decisions by the 4th circuit, the 6th circuit, the 9th circuit
and the D. C. Circuit...............................................................
1.

Petitioner’s Motion(60(b) specifically references
EEOC Decision presenting Question of
Considerable Importance Regarding Split
Among the Circuits regarding Chandler
v. Roudebush............................................................

II. The court of appeals has held abuse of discretion to
provide no explanation for denying motion 60(b)...
A.

B.

C.

5

5

5

6

The court of appeals’ decision squarely conflicts
with decisions by 1st, 2nd, 3rd, 4th, 5th, 6th, 7th, 9th,
11th and D.C. circuits - all remanding motions
60(b)

6

Title 25 - 25 U.S.C. Ch. 36: Indian Employment,
Training, and Related Services...............................

7

Defendant refused 28 U.S.C. 535(b) compliance
requirements regarding Levy now charged in
W.D. Ark. With criminal charges..........................

10

1.

Defendant’s employee Robert Levy
is now charged in the W.D. Ark. by the
U.S. Attorney with two counts of having
i

made false statements in violation of
18 USC 1001(a)(2), with two counts
of having made false statements in
connection with health care services
in violation of 18 USC 1035(a)(2), and
charged with three counts with three
counts of involuntary manslaughter....

3.

4.

5.

D.

12

2.

In re Lindsey: “at the very least “[section]
535(b) evinces a strong congressional policy
that executive branch employees must report
information “relating to violations of Title 18,
the federal criminal code”...................................

(a)

Defendant’s employee attorney Kent Smith
participated in 2014 Levy civil case with no
document in evidence showing 28 U.S.C.
§535(b) compliance in regard to Petitioner
demonstrating §3404 violation........................

15

No Guiterrez court adjudication and order of scope
of employment regarding Defendant’s employee
Robert Levy in 2014 civil case.....................................

18

No prior case with finding and Order regarding
evidence presented to show “actually litigated”..

22

There is no res judicata because Defendant
requested representation of Levy in violation of
28 C.F.R. 50.15...........................................................

23

6. Yankton elements are not met

23

Defendant provides no explanation why his employee
Robert Levy chose to violate judicially set and/or
legislatively set limits for his own purposes.................

24

1.

2.

Branch v. Hempstead case law on procedural
and substantive due process requirements
for a physician.......................................................
Defendant’s employee Levy’s violation of judicial
li

25

limits set by case law

25

3. 42 U.S.C. §11112 - the statutory limits Levy violated....

26

4. 5 U.S.C. §7114 - the statutory limits Levy violated

27

Conclusion

28

Appendix A
The United States Court of Appeals for the Eighth Circuit,
Case No. 20-1032, F. Allan Midyett, M.D. v. Robert Wilkie,
Secretary, Department of Veterans Affairs, Appeal
Denied Filed August 31, 2020.....................................................

2

Appendix B
The United States Court of Appeals for the Eighth Circuit,
Case No. 20-1032, F. Allan Midyett, M.D. v. Robert Wilkie,
Secretary, Department of Veterans Affairs, Judgment of
District Court affirmed August 31, 2020..................................

1

Appendix C
The United States Court of Appeals for the Eighth Circuit,
Case No. 20-1032, F. Allan Midyett, M.D. v. Robert Wilkie,
Secretary, Department of Veterans Affairs,
Appellant’s Motion for Stay Denied on October 20, 2020....

1

Appendix D
In the W. D. Ark. Case. No. 5:19-cv-05152-TLB,
Midyett v. Wilkie Order denying Motion to Set Aside Order
December 30, 2019..........................................................................

1

Appendix E
In the W.D.Ark. Midyett v. Wilkie, 612 B.R. 197 (2019)
signed December 16, 2019....................................................
Appendix F
In the W.D. Ark. Midyett v. Levy (2017) Case No. 14-5016
m

9

February 17, 2017

9

Appendix G
EEOC Decision on Request for Reconsideration
dated July 26, 2019
F. Allan Midyett, Complainant, v. Robert Wilkie, Secretary,
Department of Veterans Affairs, Agency
Request No. 2019003612
Appeal No. 0120171608
Hearing Nos. 490-2013-00006X
490-2013-00128X [sic]
Agency No. 2003-0564-2012104272
2003-0564-201204272...........

4

Appendix H
EEOC Decision
dated April 25, 2019
F. Allan Midyett, a/k/a
Clifford L.,
Complainant,
v.
Robert Wilkie, Secretary,
Department of Veterans Affairs, Agency
Appeal No 0120171608
Hearing Nos. 490-2013-00006X
490-2013-00138X [sic]
Agency Nos. 2003-0564-2012101104
Agency Nos. 2003-0564-2012104272

14

Appendix I

IV

Complaint for Employment Discrimination
in the United States District Court
For the Western District of Arkansas
F. Allan Midyett v. Robert Wilkie,
Secretary, Department of Veterans Affairs, Agency
Case No. 5:19-cv-05152-TLB
filed August 13, 2019......................................................

195

Appendix J
Complaint 14-5016 in the W.D. Ark styled
Midyett v. Levy filed January 14, 2014
(directly related to above matters)

65

Appendix K
Deposition of F. Allan Midyett, Complainant
v.
Eric K. Shinseki, Secretary,
Department of Veterans Affairs
Case No. EEO 490-2013-0006X
Agency No. 2003-0564-2012101104
(directly related to above mattersO
(provided by [Defendant)
Taken April 23, 2013..............................

54

Appendix L
Plaintiffs Motion Pursuant to Rule 60 With Memorandum Brief,
(filed in Case No. 5:19-cv-05152-TLB a case directly related to the matters and the document
giving rise to appeal)

52

Appendix M
Statutes and Regulations

125

Appendix N
Other Relevant Materials
including:

68

v

- U.S. Department of Veterans Affairs
American Indian and Alaska Native Employment Program
- 2010 Census Bureau Data showing No American Indians
employed by U.S. Government in State of Arkanas
in 2010
-Petitioner’s NPDB Report for the previous 47+ years
before his employment with Defendant showing
no adverse reports, no malpractice complaints,
no negative reports of any kind or type
-PSB Ex. R showing PSB Chair Robert Levy
was a physician on this case

vi

TABLE OF AUTHORITIES
Cases:
Ahmed v. Rosenblatt, 118 F.3d 886, 891 (1st Cir.1997)

6

Armstrong v. Manzo, 380 U.S. 545, 85 S.Ct. 1187, 14 L.Ed.2d 62 (1965)

25

Baltimore & Ohio Railroad Co. v. United States, 298 U.S. 349,
56 S.Ct. 797, 80 L.Ed. 1209 (1936)................................

25

Bouret-Echevarrla v. Caribbean Aviation Maint. Corp., 784 F.3d 37
(1st Cir. 2015).........................................................................
Branch v. Hempstead County Memorial Hosp., 539 F.Supp. 908
(W.D. Ark., 1982)............................................................
Chandler v. Roudebush, 425 U.S. 840, 96 S.Ct. 1949, 48 L.Ed.2d 416 (1976)

6,7,18

25
3,4,5

Costner v. URS Consultants, Inc., 153 F.3d 667, 673 (8th Cir. 1998)

23

Garcia v. United States, 62 F.3d 126, (5th Cir. 1995)

20

Goss v. Lopez, 419 U.S. 565, 95 S.Ct. 729, 42 L.Ed.2d 725 (1975)

25

Gutierrez de Martinez v. Lamagno, 115 S.Ct. 2227, 515 U.S. 417,
132 L.Ed.2d 375 (1995)......................................................

18, 20

Indep. Oil & Chem. Workers of Quincy, Inc. v. Procter & Gamble Mfg. Co.,
864 F.2d 927, 929 (1st Cir.1988).......................................................

6

In re Grand Jury Subpoena Duces Tecum, 112 F.3d 910, 920, (8th Cir. 1997)

13

Lindsey, In re, 158 F.3d 1263 (D.C. Cir. 1998)

Reid ex rel. M.A.R. v. BCBSM, Inc., 787 F.3d 892 (8th Cir. 2015)

11, 12,13,14,
16, 17, 18
2,6

Ricci v. DeStefano, 129 S.Ct. 2658, 174 L.Ed.2d 490, 557 U.S. 557 (2009)

9

Wolff v. McDonnell, 418 U.S. 539, 94 S.Ct. 2963, 41 L.Ed.2d 935 (1974)

25

Yankton Sioux Tribe v. U.S. Dept. ofHhs, 533 F.3d 634, 2008 WL 2628931
(8th Cir. 2008)...................................................................................

23,24

Statutes and rules:
5 USC 7114

24,26, 27

18 USC 1001(a)(2)

12

18 USC 1035(a)(2)

12

25 USC 479

2,8

25 USC Ch. 36 §3401 et seq (Title 25)

1,2,3,4,5„7,8,

28 USC 535(b)

10,12,13,15,
9,10,11,12,
14,15,16,17,
18,19,21,22,
12, 24, 28

28 USC 1367

20

28 USC 2679

19, 20,21

29U.S.C. § 621 et seq ADA,
42 USC 2000e-16(a)............
42 USC 11112
FMLA - 5 USC 7114
Title VII - Section 717( c) of Title VII of the Civil Rights Act of 1964,
added by § 11 of the Equal Opportunity Act of 1972.................
5 CFR §2635.101
28 CFR 50.15

4
3

16,17,24,26,27
24, 27

3,4,5,6,7
24

11,13,14,15,
19,22,23

29 CFR 1607

9

Fed. R. Civ. Pro. 19(a)(1)

20

Fed. R. Civ. Pro. 44(a)(1)(A)

9

Fed. R. Civ. P. 60(b)

2,3,4,5,6,7,
10,11,14,18

Miscellaneous:
Restatement (Third) of Agency, § 7.03(2)(a)(b)
Restatement of Judgments (Second) Section 27
VHA Handbook 1100.19

24
22, 23

11

Petitioner, pro se, respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Eighth Circuit in this case
pursuant to 28 U.S.C. 1254.
OPINIONS BELOW
The opinion of the court of appeals is unpublished.
JURISDICTION
The judgment of the Court of Appeals was entered on August 20, 2020. Petition
for re-hearing en banc was denied on October 13, 2020. Petition for stay was denied
on October 20, 2020. The covid-19 extensions for a writ of certiorari are extended to
and including January 28, 2021. The jurisdiction of this Court is invoked under 28
U.S.C. 1254.
STATUTORY PROVISIONS INVOLVED
25 U.S.C. Ch. 36: Indian Employment, Training, and Related Services.
STATEMENT
The question in this case is whether the Secretary of the Department of
Veterans Affairs can refuse to comply with provisions of 25 U.S.C. Ch. 36 to take
adverse acts causing harm to an adult American Indian employee, who is a member
of a federally recognized Indian tribe, and/or former employee of the Department of
Veterans Affairs (DVA).
Petitioner is an adult Cherokee American Indian, who is a member of the
Cherokee Nation, who was an employee of DVA at relevant times herein. Petitioner
is an Indian as defined in 25 U.S.C. Ch. 36. There is no document in evidence in this
1

matter DVA, a federal agency as defined in 25 USC Ch. 36, does not have a program
as set out in 25 USC Ch. 36. Pertinent provisions of §3404, contained therein, provide:
(iii) creating or enhancing employment opportunities; (v) assisting Indian . . .
adults to succeed in the workforce; (vi) encouraging self-sufficiency; (viii)
facilitating the creation of job opportunities; (ix) economic development; (x) any
services related to the activities described in clauses (i) through (x).
Defendant has produced no document of compliance with this statute in evidence in
this matter in regard to Petitioner. 25 U.S.C. §479 sets out notice by publication in
the Federal Register annually of the list of all Indian tribes eligible “for the special
programs and services provided by the United States to Indians because of their status
as Indians”. This put all parties including the Courts on notice.
While there are prior orders of the district court clearly stating Petitioner is a
Cherokee American Indian, there is no prior court order applying or denying any
provision of 25 U.S.C. Ch. 36 to Petitioner by Defendant. The Court of Appeals did not
apply nor deny any provision of 25 USC Ch. 36 to Petitioner by Defendant.
The District Court order on Petitioner’s Motion 60(b), Doc. 201 in Case No.
5:19-cv-05152, states only: “Order denying Motion to Set Aside Order” and nothing
more.

Doc. 21,2 Case No. 5:19-cv-05152 filed December 30, 2019.

There is no

explanation. The Appellate Court did not follow its standard set out in Reid ex rel.
M.A.R. v. BCBSM, Inc., 787 F.3d 892 (8th Cir. 2015), where the Court held “reviewing
ruling on Rule 60(b) motion for abuse of discretion. . . Here, the district court . . .

'Appendix L
2Appendix D
2

provided no explanation for doing so.. .we remand the case to the district court.” The
Appellate Court chose to treat Petitioner differently from its holding in the Reid case
where it remanded that case.
REASONS FOR GRANTING THE PETITION
This Court’s review is warranted so that the legislative intent of 25 U.S.C. Ch.
36 will not be undermined. Congress clearly expressed its legislative intent in 25
U.S.C C.h. 36, §3401 et seq: “all Federal programs that emphasize the value of work”
then set out the provisions in §3404 shown above. This case demonstrates the harm
caused when the legislative intent is not followed. This is demonstrated in TJ16, Doc.
20: Petitioner has been irrevocably harmed as demonstrated by the holding in Walker
v. Mem'l Health Sys. of E. Tex., 231 F.Supp.3d 210 (E.D. Tex., 2017) that an adverse
report to the NPDB causes irreparable harm to the physician and his ability to
maintain employment. [Petitioner] has been without employment. Defendant has
produced no document in evidence in this matter to show compliance with the
provisions of 25 U.S.C. Ch. 36 in regard to Petitioner by taking adverse acts in
violation of this statute

causing him harm by reporting him to the National

Practitioner Data Bank (NPDB), refusing him a trial de novo on his Title VII claim in
federal court as provided in Section 717( c) of Title VII of the Civil Rights Act of 1964,
as set out in Chandler v. Roudebush, 425 U.S. 840, 96 S.Ct. 1949, 48 L.Ed.2d 416
(1976). This creates a split among the circuits that follow Chandler among which are
at least the 4th circuit, the 6th Circuit, the 9th circuit, the 10th Circuit, and the D.C.
Circuit.
3

This case is worthy of further review because virtually every circuit that has
considered a Motion 60(b) has ruled the same thing: remand. These circuits are the
1st, 2nd, 3rd, 4th, 5th, 6th, 7th, 9th, 11th, and D.C. circuits. The 8th Circuit in this matter did
not remand in regard to American Indian Petitioner. This creates a split among the
circuits. I am proceeding pro se. I filed a petition to proceed in forma pauperis which
was granted by the District Court in Case No. 5:14-cv-05016. fl[4, Doc. 20 reference
to case) My request to the Court to appoint an attorney to represent me was refused.
In that case, in my Original Complaint, I set out the ADA, my request for reasonable
i

accommodation for hearing impairment, hypertension, and that my wife is being
treated for ovarian cancer. My wife who is an attorney tried to assist me for as long
as she could. See SAI v. Transp. Sec. Admin., 315 F.Supp.3d 218 (D. D.C. 2018)
regarding pro se litigants. I refer to myself herein as Petitioner for legal purposes.
The Order denying the Motion 60(b) states only: “Order denying Motion to Set
Aside Order” and nothing more. There is no explanation. Denial of Petitioner’s Motion
60(b) is denial of its entire contents containing a plethora of issues that could not be
“mechanically” ruled upon as that term has been used by other Circuit Courts. As set
out above, rehearing was denied. Petitioner set out in his Motion 60(b) significant
issues and facts including the EEO Decision in f 3, Doc. 20; in If4, Doc. 20, the denial
of the opportunity to present his case. This raises the EEO Decision for review based
on denial of the Motion 60(b). Denial of a trial de novo on a Title VII claim in federal
court violates Section 717( c) of Title VII as set out in Chandler above. This
demonstrates denial of provisions of 25 USC §3404
4

set out above in regard to

Petitioner to cause harm to Petitioner as set out in

16, Doc. 20 above.

This

demonstrates violation of due process of law in regard to Petitioner, a person
protected under 25 U.S.C. §3404.
I.

A.

THE COURT OF APPEALS’ DECISION WARRANTS REVIEW BY THIS
COURT
The Court of Appeals’ decision squarely conflicts with decisions by the
4th circuit, the 6th Circuit, the 9th circuit, the 10th Circuit, and the D.C.
Circuit.
Petitioner was denied a trial de novo on his Title VII claim in federal court in

violation of Chandler v Roudebush creating a split among the circuits.
1.

Petitioner’s Motion 60(b) specifically references EEOC Decision
presenting Question of Considerable Importance Regarding Split
Among the Circuits regarding Chandler v. Roudebush

If3, Doc. 20, makes reference to EEOC Decision. Petitioner initiated EEO
counseling on December 20, 2011. On March 21, 2012 he filed EEO complaint setting
out discrimination and harassment. This demonstrates Defendant’s denial of
provisions of 25 USC §3404 in regard to Petitioner. Petitioner is Cherokee, American
Indian. Defendant has produced no document in evidence in this matter: (1) Petitioner
was not an employee on March 21, 2012; (2) Petitioner has been allowed any trial de
novo in federal court on his Title VII claims. Chandler sets out a “trial de novo”, not
a “review of the administrative record”. Because Petitioner did not receive a trial de
novo as set out in Chandler, this creates a split among the circuits that follow
Chandler v. Roudebush among which are at least the 4th circuit, the 6th Circuit, the 9th
circuit, the 10th Circuit, and the D.C. Circuit. Certiorari is warranted to correct this

5

error and to enforce the meaning of the statute as set forth in Chandler in regard to
Petitioner, an adult American Indian.
II.

THE COURT OF APPEALS HAS HELD ABUSE OF DISCRETION TO
PROVIDE NO EXPLANATION FOR DENYING MOTION 60(b)

A.

The Court of Appeals’ decision squarely conflicts with decisions by 1st,
2nd, 3rd, 4th, 5th, 6th, 7th, 9th, 11th, and D.C. circuits - all remanding Motions
60(b)
The District Court order from which Petitioner appeals states only: “Order

denying Motion to Set Aside Order” and nothing more. There is no explanation. The
Appellate Court did not remand.
This case is worthy of further review because virtually every circuit that has
considered a Motion 60(b) has ruled the same thing: remand. These circuits are the
1st, 2nd, 3rd, 4th, 5th, 6th, 7th, 9th, 11th, and D.C. circuits. The 8th Circuit in this matter did
not remand in regard to American Indian Petitioner. This creates a split among the
circuits.
The Appellate Court did not follow the standard in Reid ex rel. M.A.R. v.
BCBSM, Inc., 787 F.3d 892 (8th Cir. 2015) where it found no explanation was ground
to remand but chose to treat Petitioner differently.
The 1st Circuit in the case of Bouret-Echevarria v. Caribbean Aviation Maint.
Corp., 784 F.3d 37 (1st Cir. 2015) sets out a cogent discussion. “We review the denial
of a Rule 60(b) motion for abuse of discretion. See Ahmed v. Rosenblatt, 118 F.3d 886,
891 (1st Cir. 1997). “Abuse occurs when a material factor deserving significant weight
is ignored, when an improper factor is relied upon, or when all proper and no improper
6

factors are assessed, but the court makes a serious mistake in weighing them.” Indep.
Oil & Chem. Workers of Quincy, Inc. u. Procter & Gamble Mfg. Co., 864 F.2d 927, 929
(1st Cir.1988). . . In the first instance, an inquiring court should assume the truth of
fact-specific statements contained in a Rule 60(b)(6) motion.”
Petitioner’s Motion 60(b)(6) contained such “fact-specific statements” setting out
sworn statements.
121, Doc. 20: Petitioner is ABR CAQ3 neuroradiologist, published author of two
internationally published medical textbooks, previously testified as medical
expert; 122: testimony on Petitioner’s qualifications as only one who could read
MRI; ^[23: white radiologist disparate treatment testimony; Chief of Radiology
testimony of hearsay upon hearsay and lack of understanding of RVU values;
1[26: W.D. Ark. criminal charges filed against Defendant’s employee Levy; 127:
DVA employee testimony Levy was told not to provide PSB evidence to
Petitioner
In the Bouret factors, Petitioner satisfies the requirements in his Doc. 20.
Timing, Exceptional Circumstances of due process violation, meritorious claim or
defense. The Bouret Court held:
“These fact-specific portions of Bouret-Echevarria's motion could not be
dismissed. . . They had a probative weight that the district court ignored.” Id.
at 47.
That Court held the district court abused its discretion, vacated the district court’s
Order and remanded for hearing in conformity with the provisions of the Appellate
opinion.
In this matter, the Court of Appeals refused to remand and did not find abuse
of discretion in regard to Petitioner.

American Board of Radiology Certificate of Added Qualifications in Neuroradiology
7

B.

Title 25 - 25 U.S.C. Ch. 36: Indian Employment, Training And Related
Services
Defendant has refused compliance in regard to Petitioner with any part of 25

U.S.C. Ch. 36: Indian Employment, Training and Related Services which includes §
3404 setting out employment protections for American Indians and provides both the
Attorney General and Secretary of Veterans Affairs shall coordinate federally funded
employment and related services programs. Defendant has produced no document in
evidence in this matter that would exclude Defendant
Defendant has produced no

from 25 U.S.C. Ch. 36.

document in evidence in this matter

to

demonstrate:
(1) Defendant does not have a program as set out in 25 U.S.C. Ch. 36.
(2) Petitioner is not an adult American Indian who qualifies for the protections
set out in 25 U.S.C. Ch. 36.
(3 )Defendant applied the provisions of 25 U.S.C. Ch. 36 to Petitioner.
(4) Defendant had any other employee at VHSO who was a member of a
federally recognized Indian tribe - the definition of “Indian” in 25 U.S.C. Ch. 36.
Doc. 20, p. 1 states Petitioner is an American Indian, f 3, Doc. 20, Petitioner is
Cherokee. Tf27, Doc. 20, Petitioner is the only employee in this matter who is a member
of a federally recognized American Indian tribe. See 25 U.S.C. §479. |32, Doc. 20:
“The Secretary shall publish in the Federal Register a list of all Indian tribes
which the Secretary recognizes to be eligible for the special programs and
services provided by the United States to Indians because of their status as
Indians.
“(b) Frequency of publication
8

The' list shall be published within 60 days of November 2, 1994, and
annually on or before every January 30 thereafter.”
In the Federal Register, Vol. 85, No. 20, p. 5463 is listed Cherokee Nation.
Because of the requirement for publication in the Federal Register of the “list of all
Indian tribes which the Secretary recognizes to be eligible for the special programs and
services provided by the United States to Indians because of their status as Indians”
“annually on or before every January 30", this put all parties, including the Courts on
notice. Because 25 U.S.C. Ch. 36 is federal law entitled “Indian Employment, Training
and Related Services” that put all parties including the Courts on notice it is one of
the “special programs and services provided by the United States to Indians because
of their status as Indians”. These are “official publications” as referred to in F.R.C.P.
44(a)(1)(A).
149, Doc. 20: “[Petitioner] was the only Cherokee American Indian in the
Department of Radiology at VHSO. Perforce, any and all selection rates
regarding [Petitioner] Cherokee American Indian Dr. Midyett fall well within
this “rule of thumb for courts” in race discrimination.”
147, Doc. 20, citing Ricci v. DeStefano, 557 U.S. 557, 129 S.Ct. 2658, 174 L.Ed.2d 490
(2009) sets out the impact of four fifths or 80% rule “A selection rate for any race, sex, or ethnic group which is less than four fifths
( 4/5 ) (or eighty percent) of the rate for the group with the highest rate will
generally be regarded by the Federal enforcement agencies as evidence of
adverse impact”
147 sets out 29 CFR §1607.9 that sets out no assumption of validity of selection
activities. 149 demonstrates Petitioner was a federal employee and as the only
Cherokee American Indian falling well within this “rule of thumb for courts” in race

9

discrimination. 1f47, Doc. 20, Chief of Staff John Henley states the radiologist at a PSB
should be able to see the documentation. 1150, Doc. 20, set out above regarding white
employee Hamric . If9, Doc. 20, Petitioner sets out there is no document in evidence in
this matter to show Levy, PSB Chair, produced any evidence to [Petitioner], This
shows the evidence of adverse impact under the 80% rule in regard to Petitioner.
r

Because Defendant has refused to comply with provisions of 25 U.S.C. §3404 in
regard to Petitioner, he is now and has been unemployed. Defendant has produced no
document in this matter to show legitimate reasons why Defendant has refused
compliance with this statutory law in regard to Petitioner.

Petitioner believes

Defendant’s persistent violation of pertinent provisions of 25 U.S.C. §3404 in regard
to Petitioner demonstrates “any other reason that justifies relief’ as set out in
F.R.C.P. 60(b)(6). Petitioner’s Motion 60(b) included F.R.C.P. 60(b)(6). See Doc. 20.
C.

Defendant refused 28 U.S.C. 535(b) compliance requirements regarding
Levy now charged in W.D. Ark. with criminal charges
Doc. 20, p. 1 sets out criminal charges against Defendant’s employee, Robert

Levy. 1| 19, Doc. 20, Petitioner sets out he hand delivered his written opposition in his
EEO claim to Defendant’s facility director Mark Enderle on December 20, 2011
containing disclosed Agency (DVA) medical errors which Enderle described as reading
like a pathology textbook. Although Defendant’s employee Robert Levy is now charged
with criminal conduct involved with his medical employment with [Defendant],
Defendant has not complied with 28 U.S.C. 535(b) by disclosing Agency (DVA)
wrongdoing in this matter causing adverse acts causing harm to Petitioner, who is a

10

former federal employee.
Tf27, Doc 20: This “is demonstrated by the sworn testimony of [Defendant’s]
employee Jerry Duncan where he testifies to advising Levy to withhold evidence from
[Petitioner]. In the 07/14/2015 EEO Tr. P. 403 [Defendant’s] employee Jerry Duncan
testified Robert Levy was given advice not to respond to [Petitioner’s] request for PSB
evidence alleged against him despite the fact that the request was made pursuant to
provisions of VHA Handbook 1100.19. This handbook says it “must be followed”.
[emphasis added] This predates any criminal charges against Robert Levy. This
shows [Defendant’s] personnel knew at that time Levy was a problem. They had
[Petitioner’s] written opposition dated December 20, 2011 that “these misses read like
a pathology textbook”.
At the request of Defendant the U.S. Attorney for W.D. Ark. chose to represent
a presumed criminal defendant, Robert Levy, in a civil matter in 2014 against
Petitioner protected by federal statutory employment protections as set out in 25
U.S.C. §3404 in that civil matter involving the presumed criminal defendant.
Petitioner sets out Case No. 5:14-CV-05016 in H4 of his Motion 60(b).
Petitioner’s Original Complaint in 2014 is file-marked 1-14-2014 in the W.D. Ark..
Defendant has produced no document in evidence in this-matter setting out how the
W.D. of Ark. U. S. Attorney in his representation of Robert Levy in 2014 would not
be a conflict of 28 C.F.R. §50.15(a) as discussed in Lindsey, In re.:
“Indeed, before an attorney in the Justice Department can step into the shoes
of private counsel to represent a federal employee sued in his or her individual
capacity, the Attorney General must determine whether the representation
11

would be in the interest of the United States. See 28 C.F.R. § 50.15(a).” Id. at
1273.
Petitioner’s Motion 60(b), p. 1, put the Court on notice of criminal charges against
Defendant’s employee Dr. Levy, a federal employee, involved in this matter and put
both Defendant and the Court on notice of 28 U.S.C. 535(b) compliance requirements
in regard to federal employees and federal lawyers involved in this matter as set out
in Lindsey, In re, 158 F.3d 1263 (D.C. Cir. 1998) providing an in-depth discussion of
federal employee’s responsibilities under 28 U.S.C. §535(b) Defendant has produced
no document in evidence in this matter to show compliance with 28 U.S.C. §535(b)
requirements disclosing Agency (DVA) wrongdoing in this matter. Petitioner believed
he could rely on legitimate enforcement of federal statutes.

This demonstrates

Defendant’s violation of 25 U.S.C. §3404 as set out above in regard to Petitioner.
1.

Defendant’s employee Robert Levy now charged in the W.D. Ark. by the U.S.
Attorney with two counts of having made false statements in violation of 18
U.S.C. 1001(a)(2), with two counts of having made false statements in
connection with health care services in violation of 18 U.S.C. 1035(a)(2), and
charged with three counts of involuntary manslaughter

Doc. 20, p. 1 sets out criminal charges against Defendant’s employee, Robert
Levy. If 19, Doc. 20, Petitioner sets out he hand delivered his written opposition in his
EEO claim to Defendant’s facility director Mark Enderle on December 20, 2011
containing disclosed Agency (DVA) medical errors which Enderle described as reading
like a pathology textbook. Although Defendant’s employee Robert Levy is now charged
with criminal conduct involved with his medical employment with Defendant
Defendant has not complied with 28 U.S.C. 535(b) by disclosing Agency (DVA)

12

wrongdoing in this matter causing adverse acts causing harm to Petitioner, who is a
former federal employee.
2.

In re Lindsey, “at the very least "[section] 535(b) evinces a strong
congressional policy that executive branch employees must
report information "relating to violations of Title 18, the federal
criminal code’”

“[Government attorneys stand in a far different position from members of the
private bar. Their duty is not to defend clients against criminal charges and it
is not to protect wrongdoers from public exposure. . . Each part of the
government has the obligation of carrying out, in the public interest, its
assigned responsibility in a manner consistent with the Constitution, and the
applicable laws and regulations . . .Indeed, before an attorney in the Justice
Department can step into the shoes of private counsel to represent a federal
employee sued in his or her individual capacity, the Attorney General must
determine whether the representation would be in the interest of the United
States. See 28 C.F.R. § 50.15(a). ..[i]f there is wrongdoing in government, it must
be exposed.... [The government lawyer's] duty to the people, the law, and his
own conscience requires disclosure...."to allow any part of the federal
government to use its in-house attorneys as a shield against the production of
information relevant to a federal criminal investigation would represent a gross
misuse of public assets." In re Grand Jury Subpoena Duces Tecum, 112 F.3d
910, 921 (8th Cir.), cert, denied, — U.S. —117 S.Ct. 2482, 138 L.Ed.2d 991
(1997). . . [a]ny information ... received in a department or agency of the
executive branch of the Government relating to violations of title 18 involving
Government officers and employees shall be expeditiously reported to the
Attorney General. . . at the very least "[section] 535(b) evinces a strong
congressional policy that executive branch employees must report information"
relating to violations of Title 18, the federal criminal code ... As the House
Committee Report accompanying section 535 explains, ”[t]he purpose" of the
provision is to "require the reporting by the departments and agencies of the
executive branch to the Attorney General of information coming to their
attention concerning any alleged irregularities on the part of officers and
employees of the Government." Lindsey, In re, 158 F.3d 1263 (D.C. Cir. 1998)
There is no requirement for Petitioner to have made any motion to enforce 28
U.S.C.

535(b).

Petitioner made the report of Agency (DVA) medical errors to

Defendant’s facility director Mark Enderle in December, 2011 who described the

13

Agency (DVA) medical errors Petitioner reported to him as “reading like a pathology
textbook”. The onus is on the federal facility director, Mark Enderle, and the federal
lawyers to comply with this statute. Defendant has produced no document in evidence
in this matter to show that in any case involving Petitioner this statute was complied
with in regard to Petitioner.

Petitioner believed he could rely on legitimate

enforcement of federal statutes. There is no disputing Defendant’s employee Robert
Levy has been indicted by the same U. S. District Attorney for the W.D. Ark. who
chose to defend Levy in a civil matter against Petitioner, a former federal employee,
who is a person Title 25 is enacted to protect. This representation at the request of
Defendant demonstrates Defendant’s violation of 25 U.S.C. §3404 as set out above in
regard to Petitioner.
Petitioner sets out Case No. 5:14-CV-05016 in ^4 of his Motion 60(b).
Petitioner’s Original Complaint in 2014 is file-marked 1-14-2014 in the W.D. Ark..
Defendant has produced no document in evidence in this matter setting out how the
U. S. Attorney for the W.D. Ark. in his representation of Robert Levy in 2014 would
not be a conflict of 28 C.F.R. §50.15(a) as discussed in Lindsey, In re. above.
The inference is the civil division of the U.S. Attorney was defending in 2014 in
a civil matter the same person [Levy] who was most likely being investigated for
criminal conduct while at the same time refusing to give equal consideration to federal
laws the Attorney General was charged to coordinate for the benefit of Petitioner, a
former federal employee, in the same civil case.
Because Petitioner’s Original Complaint in the W.D. Ark. Case No. 5:14-CV14

0516 is file-marked 1-14-2014, the relevant question is: do any of the Levy charges
involve the year 2014? This would be during the time period of the 2014 Levy civil case
with Petitioner, a former federal employee. The inference is yes, they do. Would this
create a conflict under 28 CFR 50.15(a)? The inference is yes it would create a conflict.
The next relevant questions are: how many of those criminal charges against Levy
involve the year 2014? And how serious are those criminal charges? Is one of these
criminal charges manslaughter? The inference is yes, these criminal charges against
Levy involve the time period 2014 when the U.S. Attorney for the W.D. Ark. chose to
defend Defendant’s employee Levy in a civil matter against an adult American Indian
who has federal statutory employment protections under Title 25 of whom Petitioner,
a former federal employee who is a person Title 25 is enacted to protect, is one. This
is a conflict under 28 CFR 50.15(a). This creates the presumption of the violation of
28 U.S.C.§ 535(b) by Defendant’s refusing to disclose the answers to these relevant
questions. Defendant’s employee Kent Smith was “Of Counsel” in Case No. 5:14-CV05016.
(a)

Defendant’s employee attorney Kent Smith participated in 2014
Levy civil case with no document in evidence showing 28 U.S.C.
§535(b) compliance in regard to Petitioner demonstrating §3404
violation

Defendant’s employee Kent Smith, an attorney, is listed as “Of Counsel” in
Case No. 5:14-cv-05016 but there is no document in evidence in this matter to show
compliance with 28 U.S.C. §535(b) in regard to Petitioner in that case demonstrating
violation of §3404 as set out above. Defendant has produced no document in evidence

15

in this matter to show when Defendant’s employee Robert Levy may have initially had
investigations begun against him.

19, Doc. 20, Petitioner sets out that he hand

delivered his written opposition in his EEO claim to Defendant’s facility director Mark
Enderle on December 20, 2011 setting out disclosed Agency (DVA) medical errors
which Enderle described as reading like a pathology textbook; the inference is the
investigation began against Defendant’s employee Levy at that time. Defendant has
produced no document in evidence in this matter to show the criminal investigation
into Defendant’s employee Robert Levy did not include 2011. Defendant has produced
no document in evidence in this matter to show Defendant’s compliance with 28 U.S.C.
§ 535(b) as set out in Lindsey, In re in regard to Petitioner, whose employment is
protected by provisions of Title 25. Defendant has produced no document in evidence
in this matter to show how far back the investigation into Defendant’s employee
Robert Levy actually went, i.e., to what year did the investigation reach back. It may
well be Petitioner’s disclosures were the trigger for this investigation that resulted in
criminal charges against Levy.
TJ48, Doc. 20 sets out Defendant’s personnel stated [Petitioner] is the only
radiologist denied the evidence at any and all Professional Standards Board hearings.
Perhaps the reason for this is because in the mere handful of cases before the PSB
Defendant’s employee Robert Levy chaired regarding Petitioner, there were cases
involving Robert Levy as a participating pathologist. That may be one of the reasons
Robert Levy chose to violate provisions of 42 U.S.C . §11112 by refusing to provide a
record of the proceeding in regard to Petitioner. Defendant has produced no document
16

in evidence in this matter to contradict this.
127, Doc 20: This is the correlation in the circumstances between the fraudulent
statements attributed to [Defendant’s employee] Levy regarding [Petitioner],
[Petitioner]

is a witness having material facts to those circumstances.

This is

demonstrated by the sworn testimony of [Defendant’s] employee Jerry Duncan where
he testifies to advising Levy to withhold evidence from [Petitioner], In the 07/14/2015
EEO Tr. P. 403 [Defendant’s] employee Jerry Duncan testified Robert Levy was given
advice not to respond to [Petitioner’s] request for PSB evidence alleged against him
despite the fact that the request was made pursuant to provisions of VHA Handbook
1100.19. This handbook says it “must be followed”, lemnhasis added] This predates
any criminal charges against Robert Levy. This shows [Defendant’s] personnel knew
at that time Levy was a problem. They had [Petitioner’s] written opposition dated
December 20, 2011 that “these misses read like a pathology textbook”.
This demonstrates the violation of 28 U.S.C. § 535(b) as set out in Lindsey, In
re in regard to Petitioner protected by provisions of Title 25. This raises the
presumption Defendant’s employee Robert Levy was under investigation at that time.
Criminal defendants are usually told not to provide incriminating evidence, commonly
known as “Miranda warnings”. The PSB pursuant to provisions of 42 U.S.C. §11112
should have a record of the proceedings. Defendant’s employee Levy chose to violate
this statutory provision to avoid this record. This provides the presumption the
criminal investigation of Defendant’s employee Levy began with Petitioner’s
disclosures to Defendant’s facility director Mark Enderle in 2011. The PSB Levy
17

chaired in regard to Petitioner was in February 2012. See ^47, Doc. 20. Defendant has
produced no document in evidence in this matter to show otherwise. Defendant has
produced no document in evidence in this matter to show compliance with 28 U.S.C.
§ 535(b) as set out in Lindsey, In re. This enabled presumed criminal defendant Levy,
his employee,

to continue in his course of action.

Defendant has produced no

document in evidence in this matter to show how Levy complied with 25 USC §3404
as set out above in regard to Petitioner at this PSB Defendant’s employee Levy
chaired. This demonstrates acts that have caused irreparable harm to Petitioner as
set out in *[[ 16, Doc. 20, above.
Defendant has produced no document in evidence in this matter to show there
were no criminal charges against his employee Robert Levy, that Levy committed no
criminal act in the relevant time period, especially the year 2014. This demonstrates
Defendant’s violation of 25 U.S.C. §3404 as set out above in regard to Petitioner. This
demonstrates evidence of “other misconduct that prevented movant from fully and
fairly presenting his case” as set out in Appellate Court Order.
3.

No Gutierrez Court adjudication and Order of scope of
employment regarding Defendant’s employee Robert Levy in 2014
civil case

In TJ4 of Petitioner’s Motion 60(b) is set out Case No. 5:14-CV-05016 wherein
Petitioner specifically pled he was denied the opportunity to present his case, denied
the right to confront and cross-examine any witness. This prevented [Petitioner] from
having a fair and impartial hearing and fairly and fully presenting his case. This
tainted all other matters after it.
18

This calls attention to

Bouret factor (21. There is no Attorney General

certification in Case No. 5:14-CV-05016 that Defendant’s employee Robert Levy was
acting in the scope of employment. In Case No. 5:14-cv-0516-TLB, [Petitioner] sets
out several claims that “sound in tort” as well as the supporting statutory violation.
Petitioner cited federal statutes. Petitioner also attached exhibits pursuant to F.R.C.P.
10, among which was one that he has an Indian preference for employment. This put
[Defendant] and the Court on notice of Title 25 regarding [Petitioner]; no other
minority has such statutory “employment preference”. Under “Relief Requested”
Petitioner requests damages for loss of income, particularly including health insurance
benefits, pain, physical distress, such other relief, injunctive relief, equitable relief,
among other things.

In that case Defendant’s employee Kent Smith is listed as “Of

Counsel”.
28 CFR 50.15 provides for representation of a federal employee
“(hereby defined to include present and former Federal officials and employees)”
“when the actions for which representation is requested reasonably appear to
have been performed within the scope of the employee's employment”
“Representation is not available to a federal employee whenever:
“(1) The conduct with regard to which the employee desires representation does
not reasonably appear to have been performed within the scope of his
employment with the federal government;
“(ii)That the Department of Justice will not assert any legal position or defense
on behalf of any employee sued in his individual capacity which is deemed not
to be in the interest of the United States.”
There is no Attorney General certification of employment for Defendant’s employee
Robert Levy in Case No. 5:14-cv-0516-TLB.

19

“If the local U.S. Attorney, to whom the Attorney General has delegated
responsibility, refuses certification, the employee can make a federal case of the
matter by alleging a wrongful failure to certify. See § 2679(d)(3). The federal
employee's claim is one the U.S. Attorney has no incentive to oppose . . the U.S.
Attorney will feel a strong tug to certify, even when the merits are cloudy... the
Act specifically allows employees whose certification requests have been denied
by the Attorney General, to contest the denial in court. § 2679(d)(3) . . . the
United States will be substituted as the party defendant. § 2679(d)(2). . . the
scope-of-employment judgment determinative of substitution can and properly
should be checked by the court, i.e., the Attorney General's scarcely
disinterested certification on that matter is by statute made the first, but not
the final word. . . In adjudicating the scope-of-federal-employment question "at
the very outset," the court inevitably will confront facts relevant to the alleged
misconduct . . . The local U.S. Attorney, whose conflict of interest is apparent,
would be authorized to make final and binding decisions insulating both the
United States and federal employees like Lamagno from liability while
depriving plaintiffs of potentially meritorious tort claims.” See Gutierrez de
Martinez v. Lamagno, 115 S.Ct. 2227, 515 U.S. 417, 132 L.Ed.2d 375 (1995)
The 5th Circuit held the Gutierrez decision is in:
"accord with traditional understandings and basic principles: that executive
determinations generally are subject to judicial review and that mechanical
judgments are not the kind federal courts are set up to render". Garcia u.
United States, 62 F.3d 126, (5th Cir. 1995)
The court in Case No. 5:14-cv-05016 did not adjudicate and Order that Levy was
acting in the scope of his office or employment and substitute the United States. There
was no order for joinder of the United States by the Court under Fed. R. Civ. Pro.
19(a)(1) indicating the Court did not believe it could not “accord complete relief among
existing parties” or where a party's absence may impair its ability to protect its
interests or subject it to multiple claims. The parties were [Petitioner] and Defendant’s
employee Levy. The United States was never made a party. Because there was no
appeal of this Case No. 5:14-cv-0516-TLB , Petitioner believed he could rely on the
Court to enforce that there was no Order that Levy was acting in the scope of his
20

employment as set out in Guiterrez.
The Attorney General did not certify Levy was acting in the scope of his office
or employment. Petitioner did not raise this issue. If Defendant’s employee Levy had
raised the issue pursuant to 28 U.S.C. 2679 (d)(3) and the Court found in Levy’s favor,
then the United States would have been substituted as defendant. See Gutierrez.
There was no adjudication and Order Levy was acting in the scope of his employment.
There was no Order for joinder of the United States by the Court. The parties were
[Petitioner] and Defendant’s employee Levy.

Since there is no Attorney General

certification that Levy was acting in the scope of his employment and no Court
adjudication and Order that Levy was acting in the scope of his employment, this
raises the presumption that Levy was not acting within the scope of his employment.
This raises the issue that if Levy was not acting within the scope of his employment,
under what authority did the U. S. Attorney represent Defendant’s employee Levjf
against Petitioner, a former federal employee, protected in his employment claims in
this matter by 25 U.S.C. Ch. 36 who is a person this federal statute is enacted to
protect. The United States was not a party to the case. 28 U.S.C. 2679(d)(3) could
have provided authority for the Asst. U. S. Atty. to represent Defendant’s employee
Levy, but Defendant’s employee Levy did not raise the issue with the Court.
Petitioner can not waive the authority for the U. S. Attorney to act in
representation of Defendant’s employee Robert Levy. This goes to statutory standing
as set out in statutes and federal regulations with which the U.S. Attorney is obligated
to comply. Unlike private attorneys who may choose representation, the U.S. Attorney
21

must comply with certain federal requirements in regard to representation of clients.
The U.S. Attorney failed to do this in regard to Defendant’s employee Robert Levy in
Case No. 5:14-cv-05016. This adverse act caused Petitioner irrevocable harm. See
If 16, Doc. 20. This demonstrates Defendant’s violation of 25 U.S.C. §3404 as set out
above in regard to Petitioner. This demonstrates evidence of “other misconduct that
prevented movant from fully and fairly presenting his case” as set out in Appellate
Court Order.
28 C.F.R. 50.15 provides: “Department of Justice will not assert any legal
position or defense on behalf of any employee sued in his individual capacity which is
deemed not to be in the interest of the United States”. This is not a “new theory”. A
pertinent provision of 25 U.S.C. §3404

sets out the Attorney General and the

Secretary of Veterans Affairs, shall coordinate federally funded employment and
related services programs. Black’s Law Dictionary defines “coordinate” as “Of the same
order, rank, degree, or authority”. This demonstrates the deviation from this standard
to exercise free rein in disregard of this federal law to leave Petitioner, a person whom
this federal law is enacted to protect, unprotected from this uncontrolled, arbitrary
exercise of unauthorized power against Petitioner.
4.

No prior case with finding and Order regarding evidence
presented to show “actually litigated”

In If4, Doc. 20, Petitioner set out “he was denied the opportunity to present his
case”. There is no finding and Order in any prior case involving Petitioner regarding
Defendant’s employees nor the United States regarding evidence presented showing

22

any issue was “actually litigated”. See Restatement of Judgments (Second) Section
27. There is no preclusive effect of any prior case involving Petitioner. Defendant has
always been on notice of this. This demonstrates Defendant’s violation of 25 U.S.C.
§3404 as set out above in regard to Petitioner, an adult American Indian. This
demonstrates evidence of “other misconduct that prevented movant from fully and
fairly presenting his case” as set out in Appellate Court Order.
5.

There is no res judicata because Defendant requested
representation of Levy in violation of 28 C.F.R. 50.15

Defendant in this matter has consistently refused to admit there is no res
judicata because Defendant requested representation of his employee Levy in violation
of provisions of 28 C.F.R. 50.15 regarding conflicts between present and former federal
employees and representation not in the interest of the United States. Petitioner, a
former federal employee, was protected in his employment by federal statute, 25
U.S.C. Ch. 36. Defendant’s employee Levy was a presumed criminal defendant. All
as set out above.
6.

Yankton elements are not met

In Yankton Sioux Tribe v. U.S. Dept, of Hhs, 533 F.3d 634, 2008 WL 2628931
(8th Cir. 2008) the Court sets out at 639:
“To establish that a claim is barred by res judicata a party must show: "(1) the
first suit resulted in a final judgment on the merits; (2) the first suit was based
on proper jurisdiction; (3) both suits involve the same parties (or those in privity
with them); and (4) both suits are based upon the same claims or causes of
action." Costner v. URS Consultants, Inc., 153 F.3d 667, 673 (8th Cir.1998).”
As set out above, there is no finding and Order in any prior case involving

23

Petitioner regarding any of Defendant’s employees nor the United States regarding
evidence presented showing any issue was “actually litigated”. See Restatement of
Judgments (Second) Section 27. There is no preclusive effect of any prior case
involving Petitioner. Because there is no prior case with any preclusive effect, Yankton
elements (1) and (2) are not met.
According to the Restatement (Third) of Agency, a principal is subject to
vicarious liability in two instances: (1) when the agent commits a tort within the scope
of employment; or (2) acts with apparent authority or purports to act on behalf of the
principal. § 7.03(2)(a)(b). Levy’s attorney provided the exception to this provision.
There was no Gutierrez Order of scope of employment in the 2014 Levy case. The
Yankton elements are not met. There is no res judicata.
D.

Defendant provides no explanation why his employee Robert Levy
chose to violate judicially set and/or legislatively set limits for his own
purposes
Defendant provides no explanation why his employee Robert Levy as PSB

chair violated pertinent provisions of 42 U.S.C. §11112, i.e., Levy refused Petitioner
the right to confront and cross-examine any witness at the PSB he chaired in regard
to Petitioner. Defendant provides no explanation why Levy as PSB Chair violated
provisions of federal law 5 U.S.C §7114 governing [Petitioner’s] favorable January
20, 2012 Step 2 Grievance Resolution in regard to American Indian Petitioner. This
federal law makes this Grievance Resolution final as to Defendant before the PSB.
Defendant provides no explanation how this complies with 5 C.F.R. 2635.101(13):
“Employees shall adhere to all laws and regulations that provide equal opportunity for
24

all Americans regardless of race, color, religion, sex, national origin, age, or handicap.”
See Ilf 4, 5, 6 of Doc 20. Defendant provides no explanation how this complies with 25
USC §3404 as set out above in regard to adult American Indian Petitioner.
116 of Doc. 20 sets out the irrevocable harm caused to Petitioner by the adverse
report to the NPDB and his ability to maintain employment citing Walker u. Mem 'l
Health Sys. of E. Tex., 231 F.Supp.3d 210 (E.D. Tex., 2017).
115, Doc 20:

There is no evidence in this matter that [Petitioner] has been

allowed to confront and cross-examine any witness, has been provided the right to
introduce evidence in his behalf.
1.

Branch v. Hempstead case law on procedural and substantive
due process requirements for a physician

114, Doc. 20, sets out the Honorable Franklin Waters in Branch v. Hempstead
County Memorial Hosp., 539 F.Supp. 908 (W.D. Ark., 1982) held:
“The law is well settled that a physician on the staff of a public hospital may
not be dismissed or his privileges reduced without compliance with certain
procedural and substantive due process requirements... These include, at least
(1) adequate notice, Goss v. Lopez, 419 U.S. 565, 95 S.Ct. 729, 42 L.Ed.2d 725
(1975); (2) adequate opportunity for a hearing, Armstrong v. Manzo, 380 U.S.
545, 85 S.Ct. 1187, 14 L.Ed.2d 62 (1965); (3) the right to introduce evidence,
Baltimore & Ohio Railroad Co. v. United States, 298 U.S. 349, 56 S.Ct. 797, 80
L.Ed. 1209 (1936); and (4) the right to' confront and cross-examine witnesses,
Wolff v. McDonnell, 418 U.S. 539, 94 S.Ct. 2963, 41 L.Ed.2d 935 (1974).”
2.

Defendant’s employee Levy’s violation of judicial limits set by
case law

Branch sets out the case law of Baltimore & Ohio providing the right to
introduce evidence and Wolff providing the right to confront and cross-examine

25

witnesses. Levy chose to put himself above these case laws. This demonstrates Levy
exceeding the judicial limits as set out in the Branch case setting out U.S. Supreme
Court case law by substituting his own judgment which deviated from any standards
either necessary or reasonable thereby exercising

free rein unfettered

by the

restraints of judicial authority transforming Levy’s acts into an impermissible
delegation of executive power leaving Petitioner unprotected from this uncontrolled,
arbitrary power in the hands of this administrative official of the executive branch,
i.e., Defendant. Because Defendant has taken no corrective action, this effectively
demonstrates Defendant’s

endorsement of this substitution

of judgment over

judicial limits to make the important policy choices that belong to the judiciary
through case law.
3. 42 U.S.C. §11112 - the statutory limits Levy violated
H21, Doc 20: Defendant’s employee Robert Levy signed a materially false,
fictitious, or fraudulent statement or representation in regard to Petitioner when
Levy executed the board action report alleging unsatisfactory in all areas made in
contradiction of known documentation demonstrating the exact opposite in violation
of provisions of 42 U.S.C. §11112, the law requiring a reasonable effort to obtain the
facts of the matter.

42 U.S.C. §11112 provides, among other things, the physician

must be given a list of the witnesses and has the right to call, examine, and crossexamine witnesses. Defendant has produced no document in evidence in this matter
to show (1) Levy provided any list of witnesses to Petitioner; (2) Levy allowed
Petitioner to confront and cross-examine any witness at the PSB he chaired in
26

violation of provisions of 42 U.S.C. §11112; (3) there is a record of this PSB

the

failure of which is a violation of provisions of 42 U.S.C. §11112; (4) no record of the
PSB Levy chaired against Petitioner has been provided to him at any time. This shows
violation of provisions of 42 U.S.C.

§11112 which provides for such a record.

Petitioner has repeatedly requested a record of the proceedings.
4. 5 U.S.C. §7114 - the statutory limit Levy violated
121, Doc 20:

Defendant’s employee Robert Levy signed a materially false

fictitious, or fraudulent statement or representation in regard to Petitioner when Levy
executed the board action report alleging unsatisfactory in all areas made in
contradiction of known documentation demonstrating the exact opposite in violation
of 5 U.S.C. §7114 (c)(3), the law enforcing the Step 2 Grievance Resolution executed
by Defendant’s employee Witztum stating Petitioner has an overall Satisfactory
proficiency effective before the PSB. This law makes the Step 2 Resolution final as to
Defendant before the PSB. Defendant has provided no document in evidence in this
matter to demonstrate why this is not an unfair labor practice in regard to Petitioner
as set out in 5 U.S.C. §7116 by Levy’s refusal to honor Petitioner’s

favorable

proficiency final as to Defendant by law as set out above. Defendant has provided no
document in evidence in this matter to demonstrate Petitioner was provided this Step
2 Grievance Resolution as set out in 5 U.S.C. §§ 7101, 7116, 7118 by Defendant.
This demonstrates Defendant’s employee Robert Levy exceeding the legislative
limits set by provisions of 42 U.S.C. §11112 and of provisions of 5 U.S.C. §7114 by
substituting his own judgment which deviated from any standards either necessary
27

or reasonable thereby exercising free rein unfettered by the restraints of legislative
authority transforming Levy’s acts into an impermissible delegation of executive power
leaving Petitioner unprotected from this uncontrolled, arbitrary power in the hands
of this administrative official of the executive branch, i.e., Defendant.

Because

Defendant has taken no corrective action, this effectively demonstrates Defendant’s
endorsement of this substitution of judgment over the statutory provisions to make
the important policy choices that belong to Congress.
This demonstrates Defendant’s violation of 25 U.S.C. §3404 as set out above in
regard to Petitioner .This demonstrates evidence of “other misconduct that prevented
movant from fully and fairly presenting his case” as set out in Appellate Court Order.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
p

F. Allan Midyett, M.D. /
Pro Se
511 3rd Avenue, S.W., #223
Rochester, MN 55902
623-466-4667

DECLARATION OF COMPLIANCE WITH RULE 33.2
1. This Petition for Writ complies with the type-volume limitation of Rule 33.2
because it does not exceed 40 pages, and it also complies with this Rule because the
Writ contains 8,158 words, excluding the parts of the Writ exempted by the Rule.
2. This Petition for Writ complies with the type face requirements of Rule 33 and
28

the type style requirements of Rule 33

because this Petition for Writ has been

prepared in proportionally spaced typeface using WordPerfect X9 using Century
Schoolbook 12.
3. The Petition for Writ has been scanned for viruses and it is virus free.
CERTIFICATE OF SERVICE
I, F. Allan Midyett, hereby declare pursuant to 28 U.S.C. §1746 on penalty of
perjury that I have served upon the following by Federal Express a true and correct
copy of the above and foregoing on this 20th day of January, 2021:
Robert Wilkie
Secretary of Veterans Affairs
Office of the Secretary,
Department of Veterans Affairs (VA)
810 Vermont Avenue, NW, Room 1000
Washington, DC 20005
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001

"D

F. Allan Midyett

29

